No.

IN THE
SUPREME COURT OF THE UNITED STATES

- PETITIONER

M.C.
VS.
STATE OF INDIANA

-RESPONDENT

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
The petitioner asks leave to file the attached petition for a writ of certiorari
without prepayment of costs and to proceed in forma pauperis.
Petitioner has previously been granted leave to proceed in forma pauperis in
the following courts:
1. The Rush Superior Court;
2. The Indiana Court of Appeals;
3. The Indiana Supreme Court.
The appointment was made under the Fourteenth Amendment to the United
States Constitution; Ind. Code § 31-32-2-2; Ind. Criminal Rule 25.
A copy of the order of appointment of counsel for appeal is appended.

C
Joel C. Wieneke
Counsel of Record
P.O. Box 368
Brooklyn, Indiana 46111
(317) 507-1949
Joel@wienekelaw.com

STATE OF INDIANA

IN THE RUSH SUPERIOR COURT

)
)
)

COUNTY OF RUSH
IN THE MATTER OF
The Delinquency of:

CAUSE NO 70D01-1812-JD-094
70DO1 -1805-J D-031

)
)
)

FILED

ORDER APPOINTING PUBLIC DEFENDER’S OFFICE
AS APPELLATE COUNSEL

February 27, 2019
RUSH COUNTY CLERK
OF COURTS

Comes now the Court, being duly advised in the premises, and having examined the Motion for
Appointment of Appellate Counsel: IT IS THEREFORE ORDERED that the Office of the Public
Defender should be appointed to represent
SO ORDERED this

as appellate counsel in these matters.

February 27, 2019

BRIAN D. HILL JUDGE
RUSH SUPERIOR COURT

Distribution:
Rush County Prosecutor
Bryan E. Barrett (2)

